<html>
<title> - A FACTUAL LOOK AT THE RELATIONSHIP BETWEEN CLIMATE AND WEATHER</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







                   A FACTUAL LOOK AT THE RELATIONSHIP
                      BETWEEN CLIMATE AND WEATHER

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           December 11, 2013

                               __________

                           Serial No. 113-58

                               __________

 Printed for the use of the Committee on Science, Space, and Technology






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




       Available via the World Wide Web: http://science.house.gov





                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

86-896PDF                     WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001





              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           ROBIN KELLY, Illinois
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah
CHRIS COLLINS, New York
                                 ------                                

                      Subcommittee on Environment

                    HON. CHRIS STEWART, Utah, Chair
JIM BRIDENSTINE, Oklahoma            SUZANNE BONAMICI, Oregon
F. JAMES SENSENBRENNER, JR.,         JULIA BROWNLEY, California
    Wisconsin                        DONNA F. EDWARDS, Maryland
DANA ROHRABACHER, California         MARK TAKANO, California
RANDY NEUGEBAUER, Texas              ALAN GRAYSON, Florida
PAUL C. BROUN, Georgia               EDDIE BERNICE JOHNSON, Texas
RANDY WEBER, Texas
LAMAR S. SMITH, Texas
      















                                C O N T E N T S

                           December 11, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     7
    Written Statement............................................     8

Statement by Representative Suzanne Bonamici, Ranking Minority 
  Member, Subcommittee on Environment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    18
    Written Statement............................................    10

                               Witnesses:

Dr. John R. Christy, Professor and Director, Earth System Science 
  Center, NSSTC, University of Alabama in Huntsville
    Oral Statement...............................................    12
    Written Statement............................................    14

Dr. David Titley, Director, Center for Solutions to Weather and 
  Climate Risk, Pennsylvania State University
    Oral Statement...............................................    31
    Written Statement............................................    33

Dr. Roger Pielke Jr., Professor and Director, Center for Science 
  and Technology Policy Research, University of Colorado
    Oral Statement...............................................    50
    Written Statement............................................    52

Discussion.......................................................    66

             Appendix I: Answers to Post-Hearing Questions

Dr. John R. Christy, Professor and Director, Earth System Science 
  Center, NSSTC, University of Alabama in Huntsville.............    78

Dr. David Titley, Director, Center for Solutions to Weather and 
  Climate Risk, Pennsylvania State University....................    88

Dr. Roger Pielke Jr., Professor and Director, Center for Science 
  and Technology Policy Research, University of Colorado.........    95

            Appendix II: Additional Material for the Record

Letter submitted by Representative Suzanne Bonamici, Ranking 
  Minority Member, Subcommittee on Environment, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   104

 
                   A FACTUAL LOOK AT THE RELATIONSHIP
                      BETWEEN CLIMATE AND WEATHER

                              ----------                              


                      WEDNESDAY, DECEMBER 11, 2013

                  House of Representatives,
                                Subcommittee on Environment
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:08 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Lamar 
Smith [Chairman of the Committee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Smith. The Subcommittee on the Environment will 
come to order.
    Welcome, everyone, to today's hearing titled ``A Factual 
Look at the Relationship between Climate and Weather,'' and let 
me also say that we have a little bit of a sparse attendance 
today for two reasons. One, there are Members of the Republican 
Caucus who are still hearing what the budget deal is all about. 
I expect them to trickle in shortly, and we have lost both 
Republican and Democrat Members to a Nelson Mandela memorial 
service, so we are down in numbers a little bit but not down in 
interest or in making a record, thanks to the expertise from 
our witnesses today. I am going to recognize myself for an 
opening statement, then the Ranking Member.
    Administration officials and the national media regularly 
use the impacts from hurricanes, tornados, droughts, and floods 
to justify the need for costly climate change regulations. 
President Obama stated in his 2013 State of the Union Address 
that, ``We can choose to believe that Superstorm Sandy, and the 
most severe drought in decades, and the worst wildfires some 
states have ever seen were all just a freak coincidence. Or we 
can choose to believe in the overwhelming judgment of science 
and act before it is too late.''
    However, the ``overwhelming judgment of science'' does not 
support the President's claims. According to the 
Intergovernmental Panel on Climate Change (IPCC), there is high 
agreement among leading experts that long-term trends in 
weather disasters are not due to human-caused climate change.
    The story is the same when we look at each type of extreme 
weather event. Hurricanes have not increased in the United 
States in frequency, intensity or normalized damage since at 
least 1900. It has been seven years since a Category 3 or 
stronger hurricane made landfall in the United States.
    Government data also indicates no association between 
climate change and tornado activity. Whether measured by the 
number of strong tornados, tornado-related fatalities or 
economic losses associated with tornados, the latter half of 
the 20th century shows no climate-related trend.
    The data on droughts yields similar results. For example, 
the National Oceanic and Atmospheric Administration concluded 
that climate change was not a significant part of the recent 
drought in Texas. And the IPCC found that ``in some regions 
droughts have become less frequent, less intense, or shorter. 
IPCC's latest report also states there is low confidence in any 
climate-related trends for flood magnitude or frequency on a 
global scale.
    The science is clear and overwhelming but not in the way 
the President said. The fact is, there is little evidence that 
climate change causes extreme weather events. Instead of trying 
to scare the American people and promote a political agenda, 
the Administration should try to protect the lives and property 
of our Nation's residents from extreme weather by better 
weather forecasting.
    This Committee last week passed bipartisan legislation to 
do just that. The Weather Forecasting Improvement Act of 2013 
strengthens our Nation's ability to save lives and property 
through advanced research and implementation of next-generation 
weather forecasting abilities.
    I hope this hearing will make clear that the impact of 
climate change is often exaggerated. Politicians and others 
should rely on good science, not science fiction, when they 
discuss extreme weather. Otherwise, they will lack credibility 
when advocating new policy changes.
    [The prepared statement of Mr. Smith follows:]

      Prepared Statement of Full Committee Chairman Lamar S. Smith

    Administration officials and the national media regularly use the 
impacts from hurricanes, tornadoes, droughts, and floods to justify the 
need for costly climate change regulations. President Obama stated in 
his 2013 State of the Union Address that, ``We can choose to believe 
that Superstorm Sandy, and the most severe drought in decades, and the 
worst wildfires some states have ever seen were all just a freak 
coincidence. Or we can choose to believe in the overwhelming judgment 
of science and act before it's too late.''
    However, the ``overwhelming judgment of science'' does not support 
the President's claims. According to the Intergovernmental Panel on 
Climate Change (IPCC), there is ``high agreement'' among leading 
experts that long-term trends in weather disasters are not due to 
human-caused climate change.
    The story is the same when we look at each type of extreme weather 
event.
    Hurricanes have not increased in the US in frequency, intensity or 
normalized damage since at least 1900. It has been seven years since a 
Category 3 or stronger hurricane made landfall in the US. Government 
data also indicates no association between climate change and tornado 
activity. Whether measured by the number of strong tornadoes, tornado-
related fatalities or economic losses associated with tornadoes, the 
latter half of the 20th century shows no climate-related trend.
    The data on droughts yields similar results. For example, the 
National Oceanic and Atmospheric Administration concluded that 
``climate change was not a significant part'' of the recent drought in 
Texas. And the IPCC found that ``in some regions droughts have become 
less frequent, less intense, or shorter.''
    The IPCC's latest report also states there is ``low confidence'' in 
any climate-related trends for flood magnitude or frequency on a global 
scale. The science is clear and ``overwhelming,'' but not in the way 
the president said. The fact is there is little evidence that climate 
change causes extreme weather events.
    Instead of trying to scare the American people and promote a 
political agenda, the administration should try to protect the lives 
and property of our nation's residents from extreme weather by better 
weather forecasting.
    This Committee last week passed bipartisan legislation to do just 
that. The Weather Forecasting Improvement Act of 2013 strengthens our 
nation's ability to save lives and property through advanced research 
and implementation of next generation weather forecasting abilities.
    I hope this hearing will make clear that the impact of climate 
change is often exaggerated. Politicians and others should rely on good 
science, not science fiction, when they discuss extreme weather. 
Otherwise, they will lack credibility when advocating new policy 
changes.

    Chairman Smith. That concludes my opening statement, and 
the gentlewoman from Oregon, Ms. Bonamici, is recognized for 
her statement.
    Ms. Bonamici. Thank you, Mr. Chairman.
    Today we continue what has been a popular topic for this 
Subcommittee and indeed the Committee at large: what impacts, 
if any, the changing climate is having on our daily life and 
the lives of our constituents. It is not likely that the 
Committee will reach consensus on this question anytime soon, 
but nonetheless I welcome and appreciate the witnesses who are 
here today.
    Dr. Titley, I am interested not just in your experiences at 
NOAA, but also in your work for the Navy, where you rose to the 
rank of Rear Admiral. And I know I speak for the entire 
Subcommittee when I say that we are very grateful to you for 
your service to the Nation.
    Dr. Titley's work has been at the interface of weather and 
climate through his long career with the U.S. Navy and now, at 
the Pennsylvania State University. There is a long list of good 
scientists who would be capable of appearing before us to shed 
light on the facts of the relationship between climate and 
weather. Actually I would like to see more of them come before 
this Subcommittee and the Committee in the whole because 
whatever our diverse views on climate change, there is 
absolutely no disagreement that severe weather events can 
devastate our constituents, deprive them of their livelihoods, 
and sometimes even take their lives. Ruling out research into a 
potential link between climate change and severe weather events 
would be burying our heads in the sand.
    Recently, I worked with Members of the Subcommittee on what 
is now bipartisan legislation to address the Federal weather 
enterprise and how it might be improved to provide our 
constituents with better warning of severe weather events. I 
know my constituents on the coast of Oregon rely on weather 
forecasting information that can tell them when it is safe to 
go out fishing, and my constituents in Yamhill County need 
information on weather patterns to help make decisions about 
the grapes they grow to make world-famous Oregon pinot noir, 
and if we are here to learn that it is erroneous to associate 
any given day's weather or any particular storm with climate 
change, then that is fine. However, climate change challenges 
us to think in terms of decades of accumulated change. Making 
comments on today's weather is easy. Learning what factors 
might influence long-term climate patterns is significantly 
more difficult. Our constituents should be able to count on 
their elected leaders to take a difficult look at a complicated 
subject. The lesson of this hearing cannot be that a potential 
link between climate change and severe weather is too difficult 
to determine or understand, and therefore we should stop 
trying.
    It should not be controversial to examine if the weather 
will change as a consequence of global warming. Scientific 
projections from the IPCC make it apparent that we will live in 
a hotter world. We already have a warmer world than that of our 
grandparents. In many of our districts, residents will 
experience drier environments with more drought. Those of us 
who represent particularly wet areas may find that 
precipitation arrives in more intense storms. The oceans will 
be warmer and that may well produce stronger or more frequent 
tropical storms. To focus only on the question of whether there 
will be more extreme events misses the point that by the end of 
this century much of the world as we know it, in our districts 
and in the States and across the world will be considerably 
altered by the weather effects of climate change.
    We need to face up to the risks of global warming and do 
more to reduce carbon emissions. Americans have always boldly 
faced risks and challenges. Our own armed services have already 
begun taking climate change seriously. The Navy, as Rear 
Admiral Dave Titley could attest, has been struggling with the 
strategic implication of year-round open seas in the Arctic.
    In summary: anthropogenic climate change is real. There is 
a strong consensus that we are already seeing climactic 
consequences from warming. The continued warming of the globe 
will have profound effects on our country and the world. This 
situation creates an opportunity for the United States to show 
leadership in reducing carbon emissions, as well as in adapting 
and mitigating the effects of climate change.
    Finally, I want to join the chairman in noting that I do 
not want the absence of more Members on my side of the aisle to 
be perceived as a lack of interest in this important topic. As 
the Chairman noted, this morning there is a memorial service 
for Nelson Mandela at the National Cathedral, and many Members 
are attending that service.
    Thank you, Mr. Chairman, and I yield back the balance of my 
time.
    [The prepared statement of Ms. Bonamici follows:]

  Prepared Statement of Subcommittee on Environment Ranking Minority 
                        Member Suzanne Bonamici

    Mr. Chairman, today we continue what has been a popular topic for 
this Subcommittee and indeed the Committee at large: what impacts, if 
any, the changing climate is having on our daily life and the lives of 
our constituents. It is not likely that the Committee will reach 
consensus on this question anytime soon, but nonetheless I welcome and 
appreciate the witnesses who are here today. Dr. Titley, I am 
interested not just in your experiences at NOAA, but in your work for 
the Navy, where you rose to the rank of Rear Admiral. And I know I 
speak for the entire Subcommittee when I say that we are very grateful 
to you for your service to the nation.
    Dr. Titley's work has been at the interface of weather and climate 
through his long career with the U.S. Navy and, now, at Pennsylvania 
State University. There is a long list of good scientists who would be 
capable of appearing before us to shed light on the ``facts'' of the 
relationship between climate and weather. Actually I would like to see 
more of them come before this committee, because whatever our diverse 
views on climate change, there is absolutely no disagreement that 
severe weather events can devastate our constituents, deprive them of 
their livelihoods, and sometimes even take their lives. Ruling out 
research into a potential link between climate change and severe 
weather events would be burying our heads in the sand.
    Recently, I worked with Members of the Subcommittee on what is now 
bipartisan legislation to address the federal weather enterprise and 
how it might be improved to provide our constituents with better 
warning of severe weather events. My constituents on the coast of 
Oregon rely on weather forecasting information that can tell them when 
it is safe to go out fishing, and my constituents in Yamhill County 
need information on weather patterns to help make decisions about the 
grapes they grow to make world-famous Oregon pinot noir.
    If we are here to learn that it is erroneous to associate any given 
day's weather or any particular storm with climate change, then that is 
fine. However, climate change challenges us to think in terms of 
decades of accumulated change. Making comments on today's weather is 
easy. Learning what factors might influence long-term climate patterns 
is significantly more difficult. Our constituents should be able to 
count on their elected leaders to take a difficult look at a 
complicated subject. The lesson of this hearing cannot be that a 
potential link between climate change and severe weather is too 
difficult to determine or understand, and therefore we should stop 
trying.
    It should not be controversial to examine if the weather will 
change as a consequence of global warming. Scientific projections from 
the IPCC make it apparent that we will live in a hotter world--we 
already have a warmer world than that of our grandparents. In many of 
our districts, residents will experience drier environments with more 
drought. Those of us who represent particularly wet areas may find that 
precipitation arriving in more intense storms. The oceans will be 
warmer and that may well produce stronger or more frequent tropical 
storms. To focus only on the question of whether there will be more 
extreme events misses the point that by the end of this century much of 
the world as we know it, in our districts and states, will be 
considerably altered by the weather effects of climate change.
    We need to face up to the risks of global warming and do more to 
reduce carbon emissions. Americans have always boldly faced risks and 
challenges. Our own Armed Services have already begun taking climate 
change seriously. The Navy, as retired Rear Admiral Dave Titley could 
attest, has been struggling with the strategic implication of year-
round open seas in the Arctic.
    In summary: anthropogenic climate change is real; there is a strong 
consensus that we are already seeing climactic consequences from 
warming; the continued warming of the globe will have profound effects 
on our country and the world. This situation creates an opportunity for 
the United States to show leadership in reducing carbon emissions, as 
well as in adapting and mitigating the effects of climate change.
    Finally I would like to note that I do not want the absence of 
Members on my side of the aisle to be perceived as a lack of interest 
in this important topic. This morning there is a memorial service for 
Nelson Mandela at the National Cathedral, and many Members are 
attending that service.
    Thank you, I yield back.

    Chairman Smith. Thank you, Ms. Bonamici.
    And let me introduce our witnesses. Our first witness today 
is Dr. John Christy, Professor and Director of the Earth System 
Science Center at the University of Alabama in Huntsville. 
Since November 2000, he has been Alabama's State Climatologist. 
Dr. Christy has served as a lead author, contributor and expert 
reviewer for the UN reports by the Intergovernmental Panel on 
Climate Change, which included satellite temperatures as well 
as other climate data sets he constructed. Dr. Christy is also 
a Fellow of the American Meteorological Society. He has served 
on five National Research Council panels or committees and has 
performed research funded by NASA, NOAA, DOE, DOT and the State 
of Alabama. Dr. Christy received his master's and doctoral 
degrees in atmospheric sciences from the University of 
Illinois.
    Our next witness is Dr. David Titley, Director of the 
Center for Solutions to Weather and Climate Risk at 
Pennsylvania State University. Dr. Titley served as a Naval 
Office for 32 years and rose to the rank of Rear Admiral. Dr. 
Titley's career included duties as Commander, Naval Meteorology 
and Oceanography Command, Oceanographer and Navigator of the 
Navy, and Deputy Assistant Chief of Naval Operations for 
Information Dominance. After retiring from the Navy, Dr. Titley 
served as the Deputy Under Secretary of Commerce for 
Operations, the Chief Operating Officer position at the 
National Oceanic and Atmospheric Administration. Dr. Titley 
holds a master's degree in science and meteorology and physical 
oceanography, and a Ph.D. in meteorology from the Naval Post 
Graduate School.
    Our third witness today is Dr. Richard Pielke, Professor of 
Environmental Studies and Director for the Center for Science 
and Technology Policy Research at the University of Colorado. 
Before joining the faculty of the University of Colorado from 
1993 to 2001, Dr. Pielke was a Scientist at the National Center 
for Atmospheric Research. Over the past 20 years, Dr. Pielke 
has collaborated with researchers around the world to publish 
dozens of peer-reviewed papers on extreme weather events and 
climate change. He is also a Senior Fellow of the Breakthrough 
Institute and holds academic appointments at Macquarie 
University in Sydney, Australia, and the London School of 
Economics. Dr. Pielke holds degrees in mathematics, public 
policy and political science, all from the University of 
Colorado.
    We welcome you all and look forward to your testimony, and 
Dr. Christy, we will begin with you.

               TESTIMONY OF DR. JOHN R. CHRISTY,

                    PROFESSOR AND DIRECTOR,

              EARTH SYSTEM SCIENCE CENTER, NSSTC,

              UNIVERSITY OF ALABAMA IN HUNTSVILLE

    Dr. Christy. Thank you, Chairman Smith and Ranking Member 
Bonamici, for the privilege it is to offer my views on climate 
change. I am John Christy, Professor of Atmospheric Science at 
the University of Alabama in Huntsville and Alabama State 
Climatologist. I served as a lead author of the IPCC years ago. 
My research might best be described as building data sets from 
scratch to advance our understanding of what the climate is 
doing and why.
    Have climate extremes of the past 50 years been 
unprecedented? To answer that question statistically, one needs 
1,500 to 2,000 years of data with which to compare. Only then 
can one determine if the characteristic is unusual. For a few 
extremes such as drought, we have long data sets. In the 12th 
century, there were megadroughts, far worse than any we have 
seen in the past century. As noted in more detail in my written 
testimony, when the comparison is done properly, to label 
today's events as extreme usually fails the test of time.
    Now to the IPCC climate models. On the screen, the figure 
you will see, a 35-year record of atmospheric temperature in 
the tropics, the key region in which climate models respond to 
greenhouse gas warming with a large and distinct signal and was 
used by the EPA as a fingerprint of climate change. This shows 
that the very latest climate model simulations are on average 
warming the tropics two to five times greater than the real 
world, as shown by the symbols. In other words, the models 
cannot tell us why the temperature did what it did in the past 
35 years.
    Now, regarding the IPCC now, please note that the IPCC was 
written by IPCC select scientists and that the document 
represents their opinions. Many of the conclusions are fine but 
some of the key ones do not represent the views of the broader 
climate science community. For example, the headline statement 
from the summary for policymakers baffles me. It reads: ``It is 
extremely likely that human influence has been the dominant 
cause of the observed warming since the mid-20th century.''
    First, the IPCC relies on climate models to distinguish 
natural from human caused climate change. However, as 
demonstrated in the chart, these same models fail to represent 
the climate of the past 35 years by a significant amount. But 
in its conclusion, the IPCC now claims more confidence that the 
models can distinguish natural from human change in correct 
proportions over a period of time during which the models fail. 
So if the models can't tell us what has happened, how can they 
tell us why it happened? It just doesn't make sense to me.
    I see two things here. One, we need to go back to the 
drawing board on climate modeling with a rigorously independent 
validation program or red-team approach, and two, the world 
community needs to be exposed to the real debates of climate 
science rather than the statements of a carefully selected few.
    Seventeen years ago in March 1996, I testified before this 
Committee about climate change and new data sets my colleague, 
Roy Spencer, and I pioneered. Using these data, Richard 
McKnight, also at UA Huntsville, and I wrote a paper in Nature 
magazine that indicated climate model simulations were warming 
the planet about four times too fast. Now over 17 years later, 
we still see the latest climate models warming the key region 
of the tropical atmosphere about four times too fast. In a 
paper published last week, Swanson demonstrated that these 
latest models are actually getting worse.
    It was clear at that time and agreed to by nearly everyone 
that our understanding of how the climate system works was poor 
and we needed more observations to better understand natural 
variability. One of my concluding statements 17 years ago was, 
and I quote: ``Without a continuing program of research that 
places climate variations in proper perspective and reports 
with improving confidence on their causes, we will be 
vulnerable to calls for knee-jerk remedies to combat climate 
change which likely will be unproductive and economically 
damaging.''
    Regulations have been put forward based upon those climate 
model projections. I have shown in previous testimony that 
these regulations will be unproductive in terms of climate 
effects, and I will let economists answer the question about 
whether the economic effects of higher energy prices will be 
damaging, especially for the poorest among us.
    In summary, we have a lot of work to do to understand why 
the climate is not changing according to proper projections, 
projections that unfortunately have been used to create policy.
    Thank you very much.
    [The prepared statement of Dr. Christy follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Smith. Thank you, Dr. Christy.
    Dr. Titley.

            TESTIMONY OF DR. DAVID TITLEY, DIRECTOR,

                CENTER FOR SOLUTIONS TO WEATHER

                       AND CLIMATE RISK,

                 PENNSYLVANIA STATE UNIVERSITY

    Admiral Titley. Thank you, Chairman Smith and Ranking 
Member Bonamici, distinguished Members for the opportunity and 
privilege to present to you today on this very, very important 
topic.
    As mentioned, I am Dave Titley and I currently am a 
Professor of Practice at Meteorology at the Pennsylvania State 
University and the Founding Director of the Center for 
Solutions to Weather and Climate Risk. I am here in my personal 
capacity today, and the views that I represent are mine.
    When--in the Navy, we have--I am just going to talk. It is 
much, much easier.
    In the Navy, we have a saying called the ``bottom line up 
front,'' and it is like just tell me what I really, really need 
to know. So here, sir, is the way that I see the salient points 
for today's hearing.
    The first is, is that the climate change is very real. I 
was very, very encouraged, sir, to hear from your opening 
statement your numerous quotes from the IPCC. The IPCC shows 
that the climate is in fact warming. We see that in the 
temperature record in both the air and the ocean, and as you I 
am sure know, 90 percent of the heat is in fact in the ocean. 
It is kind of the Willie Sutton theory. Why do we study it? It 
is where the heat is.
    The ice is collapsing. We see the ecosystems moving. We see 
the sea level rising. If you look at any one of these 
individually, you can sometimes try to figure out well, what is 
going on here, but when you put it all together, it gets pretty 
hard to come up with something other than that the climate is 
changing, and we know the basics. We certainly still have 
questions on the details like tornados, like typhoons, but we 
kind of understand the basics. I mean, this is cutting-edge 
19th-century science. Fourier, Tyndall, Arnhus all figured this 
stuff out in the 19th century.
    If you take a look at Jim Hanson's model that he--climate 
model he published in Nature magazine in 1980, it showed the 
rise in temperature. In fact, he was too conservative. The 
temperature, the global temperature, has actually risen more 
than what Hanson projected. And some models are going to be too 
slow, some are going to be too aggressive. I think there is a 
saying called ``all models are wrong but some are useful.''
    So what can we actually tell out of these models? So, I 
mean it is--hopefully we are doing more than just like looking 
at individual models because, you know, frankly, you don't need 
a brain to do that, but we understand the science, we 
understand the physics, we understand then what the models can 
help us in, and we kind of look at this in a risk framework. I 
mean, again, I am a--we are all sort of victims of our past 
circumstance, and mine is national security. I spent 32 years 
in the Navy. So I kind of look at this as the way that we 
looked at security issues in the national defense realm. We did 
not necessarily wait for that extreme event.
    I mean, imagine if this was a terrorism hearing in the 
summer of 2000. What would we say? Well, we would say we have 
had a few events, you know, some people in Africa, we had a 
bombing in the World Trade Center in the 1990s but we really 
haven't see a big signal. Is that where we want to be on 
climate? Do we want to wait for that catastrophic signal to 
then say oh, my, God, now we need to do things. So I kind of 
see the system blinking red here. And why do I say that? Warmer 
oceans, moister atmosphere, warmer air temperatures, does it 
mean that we have seen that catastrophic signal? No. But the 
absence of evidence is not the evidence of absence. So we don't 
know, and there is a big, big difference between not knowing 
versus saying well, since we haven't seen anything, therefore 
it is not going to happen.
    So I kind of would look for a risk management strategy. I 
was very happy, sir, to hear about the Weather Forecasting 
Improvement Act. As you may know, the Department of Defense and 
Department of Navy have funded, starting with President's 
budget FY13, a program called Earth System Prediction 
Capability. It is interagency. NOAA is participating. I would 
strongly encourage and hope that the Committee can help NOAA 
further participate in that along with NASA, Department of 
Energy and Department of Defense. The idea is to get better at 
everything from zero hours or today's forecast to about 30 
years because this is where in the real world we make our 
budgets, we make our decisions. It is sort of, you know, our 
infrastructure decisions. If you are a city planner, if you are 
an emergency manager, you know, seasons, years, that is where 
we need to get better, that intersection of weather and 
climate.
    As Dr. Christy said, there is a lot to learn there, and I 
hope we can help out.
    Thank you very much, sir.
    [The prepared statement of Admiral Titley follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Smith. Thank you, Dr. Titley.
    Dr. Pielke.

               TESTIMONY OF DR. ROGER PIELKE JR.,

                    PROFESSOR AND DIRECTOR,

                     CENTER FOR SCIENCE AND

                  TECHNOLOGY POLICY RESEARCH,

                     UNIVERSITY OF COLORADO

    Dr. Pielke. Chairman Smith, Ranking Member Bonamici, thank 
you for hearing my testimony today. I am a Professor of 
Environmental Studies at the University of Colorado. Before I 
jump into my substance, I do want to say I was an intern on 
this Committee in 1991 under George Brown, and I have a lot of 
respect for the work of the Members and the staff, and it is 
always great to come back.
    I have three take-home points, and then underneath that I 
will have a few more specifics. Number one, there exists 
exceedingly little scientific support for claims found in the 
media and political debate that hurricanes, tornados, floods 
and drought have increased in frequency or intensity on climate 
time scales either in the United States or globally. Two, 
similarly, on climate time scales, it is incorrect to link the 
increasing cost of disasters with the emissions of greenhouse 
gases. Three, these conclusions that I have just reported are 
part of a broad scientific consensus including that recently 
reported by the Intergovernmental Panel on Climate Change in 
its 5th assessment report as well as a special report it did 
last year on extreme events.
    So here are a few more specifics. Globally, weather-related 
losses measured in dollars have not increased since 1990 when 
the data starts being good as a proportion of GDP. Insured 
catastrophic losses have not increased as a proportion of GDP 
since 1960. Hurricane landfalls have not increased in the 
United States in frequency, intensity or normalized damage 
since at least 1990. The same holds true for tropical cyclones 
globally since at least 1970, again when the data is good.
    Now, people in New York and New Jersey might not agree with 
this, but the United States is actually in an extended period 
of relatively good luck with respect to hurricane landfalls. We 
haven't seen a category 3 landfall for the longest time period 
since 1900, at least. If rates return to the historical 
average, we will see much more hurricane damage than we have in 
recent years.
    Floods have not increased in the United States in frequency 
or intensity since at least 1950. Flood losses as a percentage 
of U.S. GDP have actually dropped by 75 percent since 1940.
    Tornados in the United States have not increased in 
frequency, intensity or normalized damage since 1950, and based 
on research that we have done, there is some evidence in fact 
that they have actually declined, the strongest tornados.
    Drought has, and I quote from a U.S. government science 
assessment report, ``for the most part become shorter, less 
frequent and cover a smaller portion of the United States over 
the last century.'' Globally, and I quote from a paper in 
Nature, there has been little change in drought over the past 
60 years.''
    Now, that being the case, it is also true that the absolute 
cost of disasters will undoubtedly increase significantly in 
coming years due to greater wealth and population and locations 
exposed to extreme. So disasters will be an important focus of 
policy irrespective of the future course of climate change.
    Now, to avoid any confusion, because this issue is so 
politicized, I thought I would make a few further statements to 
put my testimony into context.
    Humans influence the climate system in profound ways 
including through the emission of carbon dioxide via the 
combustion of fossil fuels, and again, I point you to the IPCC, 
which has been mentioned as the authoritative basis for that 
statement. Researchers have detected and in some cases 
attributed a human influence in other measures of climate 
extremes beyond those that I discuss in my testimony including 
surface temperatures, specifically, heat waves, and some 
measures of precipitation extremes. The inability to detect and 
attribute increasing trends and the incidents of hurricanes, 
floods, tornados and drought does not mean that human-caused 
climate change is not real or of concern. It does mean, 
however, that some activists, politicians, journalists, 
corporate and government agency representatives, even 
scientists who should know better have made claims that are 
unsupportable based on evidence and research. Such claims when 
they are made could undermine the credibility of arguments for 
action on climate change, and to the extent that such false 
claims confuse those who make decisions related to extreme 
events, they could lead to poor decision-making.
    A considerable body of research projects that various 
extremes may in fact become more frequent and/or intense in the 
future as a direct consequence of the human emission of carbon 
dioxide.
    Our research and that of others suggests that even assuming 
that these projections are true, it will be many decades, 
perhaps longer before that signal of human-caused climate 
change can be detected in the statistics of hurricanes, and the 
same holds for other phenomena that have the same statistical 
properties. If you are looking for evidence of climate change, 
don't look at extreme events. Our decisions related to climate 
change will take place long before we have certainty on that 
topic.
    Thank you for the opportunity to provide this testimony, 
and I look forward to your questions.
    [The prepared statement of Dr. Pielke follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Smith. Thank you, Dr. Pielke, and let me recognize 
for questions and then the Ranking Member.
    Dr. Christy, let me address my first couple of questions to 
you, and the first is this: that some people like the President 
and the EPA Administrator, Gina McCarthy, have made this 
assertion: ``97 percent of climate scientists think climate 
change is real, human activities are contributing to it, and 
that it presents a big threat to our planet.'' Is that an 
accurate statement?
    Dr. Christy. No, not at all. That statement came from a 
question that was relatively benign about, do humans have some 
effect on the climate, and it only used 77 respondents out of 
several thousand, so it was highly selective. And the American 
Meteorological Society, by the way, did do a survey of its 
professional members and found only 52 percent said that 
climate change of the past 50 years was due mostly to 
humankind. So a 52 percent amount is quite small, I think, in 
terms of confidence.
    Chairman Smith. You think the 52 percent is much more 
credible than the 97 percent?
    Dr. Christy. Oh, yeah. It included over a thousand 
respondents.
    Chairman Smith. Okay. Fifty-two percent I don't think by 
anybody's definition is a consensus, by the way, so I would say 
that there is not necessarily a consensus.
    My second question is this: Some scientists have claimed 
that the recent 15-year pause in global warming has been caused 
by the additional heat being absorbed by our oceans. Is that 
true?
    Dr. Christy. Well, that is a speculation at this point 
because the data are very imprecise when you go down below 700 
meters in the ocean, and so not having real good data, it is 
hard to make conclusions about that. However, even if it is 
true, what it indicates is that our models cannot express 
accurately what is actually happening in the climate system.
    Chairman Smith. Okay. Thank you, Dr. Christy.
    Dr. Pielke, a couple questions for you. The first is, over 
the last half century--and I think you testified to this as 
well--the scientific community has not been able to detect any 
increased frequency or intensity of hurricanes, tornados, 
droughts or floods. So there has been no scientific, I think, 
proof that any of these types of extreme weather have increased 
over the last number of years. That has been confirmed by the 
IPCC, which I quoted in my opening statement. That being the 
case, what does that say about any projections as to the future 
number of extreme weather events?
    Dr. Pielke. We did a study where we asked the question, let 
us look at climate model output, assume that it is true, and 
then look back and say when would we have detected those 
changes, and we looked in the statistics of hurricanes. It is a 
little bit like saying you are playing blackjack with a shady 
dealer and he puts an extra ace into the deck and you say how 
many hands would we have to play before we have some 
statistical evidence that there is a change in the composition 
of the deck, and the answer is that it is the better part of a 
century or longer before we would be able to detect the changes 
that are currently projected. So there is no physical basis 
actually for expecting that we would be able to detect those 
signals today, even assuming that those signals are there but 
will emerge deep into the future.
    Chairman Smith. Okay. Thank you, Dr. Pielke. One more 
question. Recently there was a national TV ad run by the 
Natural Resources Defense Council that indicated that ``taking 
action against climate change'' would ``reduce extreme weather 
events like Hurricanes Katrina, Irene and Sandy.'' Is there 
evidence that these storms have been driven by human-caused 
climate change?
    Dr. Pielke. There is not presently that evidence, and 
further, there is not evidence that we have a discernible 
impact on the future rates or intensities of those forms. There 
is a lot of good policies that can be put in place to deal with 
the threats of extreme events including hurricanes, and there 
is also a lot of good reasons to discuss energy policy changes 
including greenhouse gases but modulating the future rate of 
extreme events is probably not high on that list.
    Chairman Smith. And particularly with Hurricane Sandy, just 
to go back to that hurricane, there was a great deal of damage 
in part because it hit highly populated areas, not because the 
storm was severely or unusually strong, as we pointed out 
today. It is Hurricane Sandy that has been embraced by a lot of 
people as an indication of climate change causing extreme 
weather like that hurricane but you don't think there is any 
truth to that?
    Dr. Pielke. Well, actually, Hurricane Sandy was not even a 
hurricane-strength storm. It was incredibly intense, had 
massive damage, but the main reason it had massive damage was 
because it hit one of the most populated, wealthy parts of our 
coastline. Had it actually taken that left turn in Nova Scotia, 
it would have much less impacts and been much less severe.
    Chairman Smith. But again, no correlation between weather 
change and Hurricane Sandy as such?
    Dr. Pielke. Right.
    Chairman Smith. Okay. Thank you, Dr. Pielke.
    That concludes my questions. I will recognize the 
gentlewoman form Oregon, Ms. Bonamici, for hers.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and thank 
you to all the witnesses.
    Dr. Titley, some people assert, and I have heard this, that 
there has been no warming in the global climate temperature 
since 1998. Did global warming end in 1998?
    Admiral Titley. If only. That would have made everything so 
much easier. As we have already heard, the temperatures have 
not stopped warming since 1998, and in fact, NOAA's data show 
that for the United States, 2012, not 1998, was the warmest 
year for the continental United States.
    As has already been mentioned, the oceans continue to warm, 
and while we would always want better data, and I think I agree 
with Dr. Christy, we do agree on that, that a monitoring system 
is in all of our interests. Having said that, the Argo floats 
and the altimetry data for the ocean unequivocally show that 
this is where the heat is going. Now, why it is going there is 
an open question but it is going there, and 90 percent of the 
heat is in the ocean system. So the Earth continues to warm and 
there is some very recent research that shows it might be 
warming even faster now. So yes, ma'am, it is warming.
    Ms. Bonamici. Thank you. And I have a couple more 
questions. Dr. Titley, you have used the term ``all systems are 
flashing or blinking red'' in the climate, and could you expand 
on that? What do you mean by that? In terms of weather, what 
could we anticipate in the coming decades as a result of 
climate change?
    Admiral Titley. With respect to whether we can tell this to 
a, let us say, a 95 percent confidence level, the normal 
statistical way, you know, Dr. Pielke is right; it is going to 
take a long time. However, do we wait for like hundreds of 
terrorist attacks to say you know, there is a statistical 
change that something may be going on here. So for the system 
to be blinking red simply looking at the amount of additional 
moisture and amount of additional heat in the ocean and the 
atmosphere, we know hurricanes are basically heat engines. One 
of their main factors is how warm and how much heat do you have 
in the upper ocean. We know that is increasing.
    So it is a little bit like playing with a loaded gun here. 
Now, is it going to go off? Well, maybe yes, maybe no. But you 
look at the typhoon that went into the Philippines, strongest 
winds ever recorded on landfalling, is that climate change? I 
don't know but the atmosphere lined up with the ocean to create 
one of the most strongest storms we have ever seen.
    Ms. Bonamici. Thank you. And Dr. Titley, you previously 
served in the Navy as a Rear Admiral and you manage both 
weather and climate programs, so people sometimes have a hard 
time seeing how changes in climate and changes in weather, how 
that matters in their lives. So can you talk a little bit about 
the Arctic? Because I think that is a place where you can 
really illustrate how these changes have real-world 
consequences for the United States, and I know there is 
something about that in your written testimony, but could you 
expand on that briefly, please?
    Admiral Titley. Yes, ma'am. I sometimes tell people that we 
plan for climate but we live in weather, and that is really 
what it is. It is, you know, climate is the card deck from 
which the weather hands are being dealt. So we see that card 
deck changing faster in the Arctic than in any other place. So 
for the Navy, we see the climate is changing, so from a 
security perspective, we need to--the Navy needs to be ready--
one of Chief of Naval Operations three tenets--be ready for a 
changing environment, and it is really not a political issue 
because we would make sure we have plans for changes in 
economics, demographics, political situations, so why wouldn't 
we plan for changes in the physical situations?
    So one of the things we need is better weather forecasts. 
If we are going to work up there, and that is what the Earth 
System Prediction Capability is to help us with, ma'am.
    Ms. Bonamici. Right. Well, thank you. And I have a follow-
up on that, and I again want to thank the Members of the 
Subcommittee for working on the weather forecasting bill with 
all of us.
    Dr. Titley, from an economic perspective--and you touched 
on this briefly when you talked about the analogy to security. 
From an economic perspective, isn't it wise to prepare for 
severe weather events and save property and perhaps lives 
rather than simply responding to them after they happen? I want 
to note that the Reinsurance Association of America has begun 
to adjust its business model to reflect a rising number of 
catastrophic events. They recently sent a letter with 
recommendations for policymakers along those same lines. I 
would like to include that for the record, and we will submit a 
copy.
    Chairman Smith. Without objection, that will be made a part 
of the record.
    [The information appears in Appendix II]
    Ms. Bonamici. Thank you.
    So from an economic perspective, isn't it wise to prepare 
for these events rather than just responding?
    Admiral Titley. Yes, ma'am. Very briefly, as you mentioned, 
the insurance industry, the reinsurance industry, sees a number 
of weather catastrophes, by their definition, significantly 
increasing. The part I find interesting is, they also look at 
geophysical like earthquake, tsunami; those aren't going up. So 
you can't just say well, there is more people, more wealth, 
living by the ocean. The weather part is going up. And of 
course, preparation is always better than reaction.
    Ms. Bonamici. Thank you very much. My time is expired. I 
yield back. Thank you.
    Chairman Smith. Thank you, Ms. Bonamici. The gentleman from 
Texas, Mr. Neugebauer, is recognized.
    Mr. Neugebauer. Thank you, Mr. Chairman, and thank you for 
calling this important hearing.
    Dr. Pielke, you know, when we talk about a lot of these 
extreme weather conditions, we tend to talk to them in the 
context of cost: what did this event cost, what did that event 
cost. And so some have even suggested that when you start to 
talk about climate trends that you somehow associate the cost 
of these disasters with the cost of these climate changes, 
climate trends. Is there a relationship between these financial 
damages and extreme weather events and long-term climate 
trends?
    Dr. Pielke. A lot of care has to be taken in looking at 
cost damage because like anything else in the economy, it 
changes quickly over time. We have more wealth, which is a good 
thing, generally, but that means more property, more exposure 
to losses, and so it is--you are setting yourself for errors by 
taking, say, the raw Munich Reinsurance data and coming to some 
conclusions about the climate system.
    There has been a number of studies that have tried to 
normalize those economic records to try to say something about 
the climate data, and there are several dozen of them now, and 
they come to a remarkable consensus, that there is in fact no 
signal of human-caused climate change in the economic loss 
record really globally but also in individual locations around 
the world.
    Mr. Neugebauer. You know, Dr. Titley showed a figure in his 
testimony that displayed the number of natural catastrophes 
worldwide by, I believe, Munich Reinsurance. Is there any basis 
for claiming that any part of the increases in disaster losses 
can be attributed to human-caused change?
    Dr. Pielke. Munich Reinsurance, which is one of the world's 
largest reinsurance companies, had that exact same question 
several years ago. So they funded a big study at the London 
School of Economics to actually go into their data and look at 
that, and you will see that is cited in my testimony. They 
found that no part of that increase in global disaster losses 
could be attributed to human-caused climate change. So that was 
their own research submitted to peer-review outlets, which I 
think is pretty consistent with what the research community has 
concluded. So I think there is a pretty strong answer to that 
question.
    Mr. Neugebauer. The warning coordination meteorologist at 
NOAA Storm Prediction Center in Norman, Oklahoma, Greg Carbon, 
I believe, stated that ``There really is no scientific 
consensus on connection between global warming and tornadic 
activity, jumping from a large-scale event like global warming 
to relatively small-scale events like tornados, a huge leap 
across the varieties of scales.''
    Dr. Christy, Dr. Pielke, do you agree with that statement?
    Dr. Christy. Yes, that sounds reasonable.
    Dr. Pielke. I will say that yes, that statement sounds 
reasonable, and we have actually looked at the tornado record, 
which is complicated by the fact that there were different ways 
to measure tornados that the Weather Service has used over 
time, and one of the most interesting features of the tornado 
record is that if you look at the damage that has been caused, 
which is an independent record from the tornados themselves, 
there has actually been a decline over many decades. So that 
gives us some reason to think that the evidence that you see, 
there is certainly no evidence of an increase in tornadic 
activity, especially the most damaging ones, but there is a 
slight hint that perhaps even there may be a decrease in recent 
decades. I wouldn't put too much weight on that but it is much 
stronger on the lack of increase side.
    Mr. Neugebauer. And the last question, what is the danger 
that we begin to try to tie these two together in the debate 
and the discussion that we are having on climate change?
    Dr. Pielke. I guess I would say that these are really two 
important issues. Climate change, the effect that we have on 
the planet is an important issue. Extreme events both 
nationally and internationally, as we saw in the Philippines, 
are also an important issue. And if we begin using extreme 
events as kind of a poster child for energy policy, we are 
doing a disservice to both debates. So I think it is important 
to understand what the science says, and if the science says 
there is no linkage, then, you know, let us not force that. Let 
us take these issues apart and have a reasonable policy 
discussion rather than a proxy debate through the science.
    Mr. Neugebauer. Dr. Christy, do you have a reaction on 
that?
    Dr. Christy. Dr. Roger Pielke said it correctly, that 
preparing for extreme events is something we should always be 
doing. I like the idea of the Weather Service being given extra 
resources to do that for forecasting but also in preparation of 
our infrastructure and responses and so on. That is good no 
matter what the climate might do in the future.
    Mr. Neugebauer. But those who try to tie the cost of those 
two to kind of impute that into the cost of climate change, are 
they doing the debate a disservice?
    Dr. Christy. Yes, and I yield to Dr. Pielke on that. He has 
done quite a bit of work, and he is exactly right, that that 
linkage needs to be broken right there.
    Mr. Neugebauer. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Neugebauer. The gentleman 
from California, Mr. Takano, is recognized.
    Mr. Takano. Dr. Titley, I am interested in this question 
about reinsurance. It has been stated here at this hearing that 
no costs heretofore can be demonstrated to have been attributed 
to climate change, but can you tell me-- you know about 
reinsurance models going forward--whether climate change 
science has affected their modeling and their understanding of 
risk.
    Admiral Titley. Just very briefly, sir, what I can tell you 
is, the reinsurance industry is intensely interested in how the 
climate is changing because it is a business issue for them. It 
is not a politics issue; it is business. And when they see the 
number of weather catastrophes increasing and increasing 
significantly, they have got to wonder how is that impacting 
their business. They may or may not be statistically related to 
climate but I will tell you, I lived on the Gulf Coast, and 
when I watched my hurricane premiums go from about $600 a year 
to $6,000 a year, there is real impact. And they are not coming 
back down and we don't see them coming back down. So I think 
there is a real impact in both the insurance and reinsurance 
industry as we price the risk of extreme weather.
    Mr. Takano. Do you agree with some of the claims made that 
there is no association between climate change and tornadic 
activity?
    Admiral Titley. Thank you certainly for that question. 
Words matter, and you know, I was almost going to start nodding 
my head up and down with the other witnesses until I heard that 
there was no linkage. There is a tremendous difference between 
no linkage and a linkage that is not known. It is only a subtle 
word change but there is a really big difference. I think the 
scientific consensus is not that there is no linkage. The 
scientific consensus is, we don't know. And that is a very, 
very important definition, sir, but we do know, we have a 
warmer and more moister world and that means that we need to 
really be careful because we know both with severe weather, 
with big thunderstorms and with hurricanes, those are one of, 
not the only, but those are primary important ingredients to 
creating big storms.
    Mr. Takano. Also, could you comment on the claim that there 
have been no increase in extreme weather events?
    Admiral Titley. Yes, sir. I think it really matters again, 
how do you define extreme weather events. I looked up the 
definition of ``extreme'' since I thought we were going to be 
talking about that today, and one of the main definitions is 
away from the center. Again, just take the basic data. We have 
had for the last 36 years since President Ford was in office 
above-normal temperatures. That is away from the center. And 
they are getting further and further away. Now, if you take 
each year as kind of its own thing, imagine like flipping a 
coin 36 times and getting heads. I mean, if that is a fair 
coin, I want to go to Vegas with you because the odds of that 
are about one in 68 billion. To put it another way, there is a 
400 times chance, greater chance that you are going to win the 
Powerball, which is $400 million, by the way, this week than 
getting 36 coins to flip heads in a row. So I would say that is 
extreme, and the ice and the Arctic, that is extreme. We have 
seen geologic changes in less than ten years. That is pretty 
extreme, sir.
    Mr. Takano. Moving from the independent assessment of 
businesspeople and reinsurance, you come from a military 
background, how has climate change science affected the hard-
hatted decisions about what the Navy or other armed forces or 
having to do to adjust? Is climate change science having an 
impact on those sort of decisions?
    Admiral Titley. Yes, sir. It is in the most--the highest-
level strategies of the Department of Defense. It is in what 
the DOD calls the Quadrennial Defense Review. Climate change is 
talked about there. I could go through very, very quickly just 
about three places. The Arctic, it is opening up a whole new 
theater of operations. That is being driven by climate.
    Infrastructure and sea-level rise, we haven't talked much 
about sea-level rise but it is a huge issue, probably up 2, 3, 
4 feet. We were just in Norfolk. I have a graph in my testimony 
that shows exponentially rising hours of flooding in some 
Norfolk neighborhoods. The Department of Defense is worried 
about that. The Navy is, and people ask why is the Navy 
concerned? It is like it is kind of a ship thing. We have to 
put our bases at sea level so it is going to be a big deal.
    And then finally, how does climate change potentially 
exacerbate conflicts, and there has been a number of peer-
reviewed studies that show both the Arab Spring and Syria 
probably have some climate linkages. Thanks.
    Mr. Takano. Thank you. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Takano. The gentleman from 
California, Mr. Rohrabacher, is recognized for his questions.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. I have 
been running back and forth. There is a hearing in Afghanistan 
going on, and I am sort of involved in that issue as well.
    Just some of the statements that Doctor--pronounce your 
name for me. Is it Titley?
    Admiral Titley. Yes, sir, Titley.
    Mr. Rohrabacher. Okay. Doctor, is there any time period in 
the last 100 years when there has been a similar de-icing in 
the Arctic area?
    Admiral Titley. No, sir, not in the last 100 years.
    Mr. Rohrabacher. So in the last 100 years, there hasn't 
been a thawing out?
    Admiral Titley. Not to the degree that we are seeing now.
    Mr. Rohrabacher. The degree. Okay. And in the past, of 
course, before the 1300s, there was much less ice up there. Is 
that correct?
    Admiral Titley. As best the paleoclimatologists can tell, 
the world today is warmer than it has been probably for about 
the last 44,000 years, sir. I think you and I had this 
discussion actually at a previous hearing, I remember, and I 
quoted the Native Americans, the Inuit, who are riding the 
Coast Guard cutter Healey, nothing in their oral history showed 
the kind of changes that are happening in the Arctic today.
    Mr. Rohrabacher. So Greenland wasn't green, and it was 
always icy, and Iceland was always Iceland, and from what I 
understand at times that there is lots of evidence to suggest 
that there was large communities in Greenland and Iceland that 
actually because it got colder disappeared.
    Admiral Titley. Yes, sir. We may be talking past each other 
slightly. I am talking about sea ice, the Arctic sea ice.
    Mr. Rohrabacher. Well, I understand that the sea ice had a 
lot to do with the Iceland community disappearing because they 
lost their transportation for supplies from Europe.
    Admiral Titley. Yes. When you take a look at the Arctic as 
a whole, we have not seen the diminishing or the lessening of 
the sea ice in thousands and thousands of years. This is 
unprecedented.
    Mr. Rohrabacher. Do the other two witnesses agree with that 
assessment?
    Dr. Christy. Not at all. I think he might have misspoke on 
the 44,000 number but the globe, especially the Arctic, has 
been much warmer in the past than it is today and there is 
plenty of evidence to support that. As well as the sea ice, 
that is a bit more murky on how much sea ice was there in any 
particular year but it does look like it had receded much 
further, especially in the mid-Holocene period, five, six, 
seven thousand years ago when Greenland was much warmer than it 
is today.
    Mr. Rohrabacher. Okay.
    Admiral Titley. The globe, sir, has been warmer in the 
past. It has warmed and it has cooled. Climate has changed for 
millions of years. It will change for millions of more. The 
difference is, is in about the last eight to twelve thousand 
years, we have had very stable climate relative to what climate 
normally is, and that is when we built human civilization. It 
is why we put our cities where we did, it is why the 
agriculture is where it is. So if we start changing that for 
whatever reason, that becomes a huge issue that humanity as a 
whole will have to deal with. So yes, the climate does change. 
That is not the issue.
    Mr. Rohrabacher. But just in terms of we were talking about 
the Arctic, you agree that it has never been warmer in the 
Arctic?
    Admiral Titley. Overall, it has not been warmer for 
thousands of years in the Arctic.
    Mr. Rohrabacher. We have one disagreement. Dr. Pielke?
    Dr. Pielke. It is not my expertise so I am happy to let 
those guys fight.
    Mr. Rohrabacher. All right. Thank you very much.
    Let me just ask, I sat through Hurricane Hazel when I lived 
in North Carolina at the time. I remember the trees. That was a 
pretty strong hurricane back in the 1950s. Was that stronger 
than Sandy or weaker than Sandy?
    Admiral Titley. It depends how you measure the strength. If 
you measure by the winds--and I think it has already been 
brought up that two of our most destructive hurricanes have 
actually been pretty--by the Saffir-Simpson scale, pretty weak 
storms. Katrina, not many people realize this, was actually a 
category 2 when it made landfall. Sandy was not even 
technically a hurricane----
    Mr. Rohrabacher. Now, a lot of the damage that we are 
talking about is----
    Admiral Titley. --is storm surge.
    Mr. Rohrabacher. --not based on the climate or the strength 
of the wind but instead where the people have built and what 
kind of houses.
    Admiral Titley. And it is storm surge, sir. And it is the 
storm surge with a rising overall----
    Mr. Rohrabacher. You mentioned that the sea rates have gone 
up, the ocean levels 4, 5 feet. Do our other witnesses agree 
with that?
    Dr. Christy. I don't think--it was someone's projection, I 
think. It has not--and it has not accelerated either. The sea 
level has not been accelerating in terms of its rising level.
    Mr. Rohrabacher. So over the centuries, you are suggesting 
sea levels are rising and you are suggesting that they are not. 
Is that correct?
    Admiral Titley. The data do show----
    Dr. Christy. The sea level is rising. It is just at a rate 
that is not accelerating.
    Mr. Rohrabacher. I see.
    Admiral Titley. It is accelerating. It is right now 3.2 
millimeters per year and it is accelerating, and are going to 
deal with 2 to 3 feet by the end of this century, at least.
    Mr. Rohrabacher. And accelerating from what time period? 
Was it accelerating--you know, we see the pictures of the 
continents and everything changing. If the continents can 
change and the sea level rises and changes then before mankind 
is ever around--see, most every time when you are suggesting 
that this is due to climate change, we are not really talking 
about climate change. We are talking about manmade climate 
change because what you are saying is then being used as an 
excuse to control the activities of mankind, correct?
    Admiral Titley. Okay. Congressman, I don't get into the 
politics. When I did this in the Navy, the reason we looked at 
this is because the battle space was changing. Now, why the 
battle space is changing was not our core interest but we saw 
the battle space was changing. But when you then walk back the 
physics, if you put in greenhouse gases, it is changing it, so 
from a policy perspective, how do we deal with the greenhouse 
gases. You can regulate it, you can use market forces, you can 
do a number of different things but, you know, again, this is 
cutting-edge 19th-century science so whether we are going to 
deal with that or not but that is kind of the crux of the 
matter. So the sea level----
    Mr. Rohrabacher. You are right. It is the crux of the 
matter, and if we try to suggest that we know the climate is 
always changing, but if we are suggesting that the greenhouse 
gases that mankind puts into the air--of course, 90 percent of 
the greenhouse gases come from natural sources--but if you are 
suggesting then we have an excuse to control human activity, 
and quite frankly, controlling human activity is not 
necessarily consistent with the founders of this country, who 
believed that human beings have rights to control their own 
actions.
    Thank you very much, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Rohrabacher.
    I would like to follow up on a subject that Mr. Rohrabacher 
brought up and ask Dr. Titley and Dr. Christy this question. As 
I understand it, some people point to the decrease in Arctic 
sea ice as an indication of a calamity or a red flag. Arctic 
sea ice went down for a number of years, actually went up last 
year. The Antarctic sea ice has gone up, increased for the last 
30 years, and when you combine the two, the amount of sea ice, 
Antarctic and Arctic is actually above the average over the 
last number of years. So why should we be concerned about some 
diminution of Arctic sea ice when the total sea ice is above 
average and when Antarctica has been going up? Dr. Titley and 
Dr. Christy.
    Admiral Titley. Thanks, sir. Just very briefly, when the 
Arctic sea ice goes down, it goes down in the summer. That 
allows a lot more heat to get into the atmosphere because it is 
summertime. The winter ice in the Antarctic is increasing. 
There is already no sun down there, so, one, it doesn't matter. 
I tell people the difference between the Arctic and the 
Antarctic, it is people, not penguins, so the difference in 
what is going on in the Arctic profoundly affects human 
civilization. The difference going on with the winter sea ice 
in the Antarctic really doesn't affect anyone. So it is a 
matter of changing the global balance. The Arctic is kind of 
the northern hemisphere's refrigerator, and we are kind of 
getting rid of the refrigerators.
    Chairman Smith. Okay. Thank you, Dr. Titley.
    Dr. Christy?
    Dr. Christy. Yes, the Arctic is different because it is a 
confined space. The Arctic ice cannot grow really much more 
than what it is because of the land area. And it is not correct 
to say that the Antarctic sea ice doesn't have an effect. In 
fact, because it grows without bound to lower latitudes, it 
actually increases the albedo of the Earth and so it does have 
a profound effect, even more so than the albedo change of the 
Arctic ice because of the angles of solar inclination.
    So yeah, the global sea ice is above average right now, and 
that is something. You know, we really don't--we can't predict. 
You can't find a single model that is able to show that result.
    Chairman Smith. Okay. I thank you both for answering that 
follow-up question. I think we have no other individuals to ask 
questions, so thank you all very much for your expertise today, 
for the information you have provided us. We very much 
appreciate it, and we stand adjourned.
    [Whereupon, at 11:05 a.m., the Subcommittee was adjourned.]












                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions



                   Answers to Post-Hearing Questions
Responses by Dr. John R. Christy




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                              Appendix II

                              ----------                              


                   Additional Material for the Record



              Submitted by Representative Suzanne Bonamici


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]

</pre></body></html>
